              Audit Report



The Social Security Administration’s
    Compliance with the Federal
 Information Security Management
  Act of 2002 for Fiscal Year 2013




      A-14-13-13086 | November 2013
MEMORANDUM


Date:      November 26, 2013                                                 Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   The Social Security Administration’s Compliance with the Federal Information Security
           Management Act of 2002 for Fiscal Year 2013 (A-14-13-13086)

           The attached final report summarizes Grant Thornton, LLP’s, (Grant Thornton) Fiscal Year (FY)
           2013 audit of the Social Security Administration’s (SSA) information security program and
           practices, as required by Title III of the E-Government Act of 2002, Public Law Number 107-
           347. Title III is also known as the Federal Information Security Management Act of 2002
           (FISMA).

           FISMA requires that we, or an independent external auditor, as determined by the Inspector
           General (IG), perform an annual evaluation that includes

           •   testing the effectiveness of SSA’s information security policies, procedures, and practices of
               a representative subset of the agency’s information systems and

           •   assessing compliance with FISMA requirements, and related information security policies,
               procedures, standards, and guidelines.

           Under a contract we monitored, Grant Thornton, an independent certified public accounting firm,
           audited SSA’s compliance with FISMA for FY 2013. Grant Thornton’s report, along with its
           responses to the FY 2013 IG FISMA reporting metrics developed by the Department of
           Homeland Security (DHS), are submitted through CyberScope pursuant to Office of
           Management and Budget (OMB) Memorandum M-14-04, Fiscal Year 2013 Reporting
           Instructions for the Federal Information Security Management Act and Agency Privacy
           Management.

           Objective, Scope, and Methodology
           The objective of Grant Thornton’s audit was to determine whether SSA’s overall information
           security program and practices were effective and consistent with the FISMA requirements, as
           defined by DHS. In addition to FISMA and DHS’ guidance, Grant Thornton tested SSA’s
           overall information security program and practices using guidance from OMB and the National
           Institute of Standards and Technology, as well as SSA policy.

           Grant Thornton conducted its performance audit in accordance with generally accepted
           government auditing standards. Those standards require that Grant Thornton plan and perform
Page 2 – The Commissioner

the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for its findings
and conclusions based on the audit objectives.

Audit Results
For FY 2013, Grant Thornton determined that SSA had established an overall information
security program and practices that were generally consistent with FISMA requirements.
However, weaknesses identified limited the overall program’s effectiveness in adequately
protecting the Agency’s information and information systems. Grant Thornton concluded that
each of the metrics was generally consistent with FISMA requirements, OMB guidance, and
applicable National Institute of Standards and Technology standards; however, Grant Thornton
identified weaknesses in the following metrics:


Continuous           Configuration        Identity and         Incident            Risk
Monitoring           Management           Access               Response and        Management
Management                                Management           Reporting


Security Training    Plan of Action &     Remote Access        Contingency         Contractor
                     Milestones           Management           Planning            Systems
                                                                                   Oversight


Weaknesses in Sections 2, Configuration Management and 3, Identity and Access Management,
resulted in negative conclusions to components of these metrics. For FY 2013, Grant Thornton
concluded that the risk and severity of SSA’s information security weaknesses were great
enough to constitute a significant deficiency under FISMA.

OIG Evaluation of Grant Thornton’s Audit Performance
To fulfill our responsibilities under the Inspector General Act of 1978, we monitored Grant
Thornton’s audit of SSA's FY 2013 compliance with FISMA by

•   reviewing Grant Thornton’s audit approach and planning;
•   evaluating its auditors qualifications and independence;
•   monitoring the audit progress;
•   examining Grant Thornton’s work papers;
•   reviewing Grant Thornton’s audit report to ensure compliance with Government Auditing
    Standards;
•   coordinating the issuance of the audit report; and
•   performing other procedures as deemed necessary.
Page 3 – The Commissioner

Grant Thornton is responsible for the attached auditor’s report and the work and conclusions
expressed therein. The OIG is responsible for technical and administrative oversight regarding
Grant Thornton’s performance under the terms of the contract. Our monitoring review, as
described above, disclosed no instances where Grant Thornton did not comply with applicable
auditing standards.

If you wish to discuss the final report, please call me or have your staff contact
Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                Patrick P. O’Carroll, Jr.

Attachment
MEMORANDUM


Date:      November 26, 2013
To:        SSA Office of the Inspector General
From:      Grant Thornton, LLP
Subject:   The Social Security Administration’s Compliance with the Federal Information Security
           Management Act of 2002 for Fiscal Year 2013 (A-14-13-13086)

           In conjunction with the audit of the Social Security Administration’s (SSA) Fiscal Year (FY)
           2013 Financial Statements, the Office of the Inspector General engaged us to conduct the
           performance audit on SSA’s compliance with Federal Information Security Management Act of
           2002 (FISMA) for FY 2013. The objective was to determine whether SSA’s overall information
           security program and practices were effective and consistent with the requirements of the
           FISMA as defined by the Department of Homeland Security. We are pleased to report the
           results of our audit and appreciate the support provided to us in completing this review.

           Our report is intended solely for the information and use of management at SSA, SSA’s Office
           of the Inspector General, the Office of Management and Budget, the Government Accountability
           Office, and Congress and is not intended to be and should not be used by anyone other than these
           specified parties.




                                                         Alexandria, Virginia
                                                         November 26, 2013
The Social Security Administration’s Compliance with the
Federal Information Security Management Act of 2002 for
Fiscal Year 2013
November 2013                                                                                        Report Summary

 Objective                                      Our Findings

 Our objective was to determine                 We determined that SSA had established an overall information
 whether the Social Security                    security program and practices that were generally consistent with
 Administration’s (SSA) overall                 FISMA requirements. However, weaknesses in some of the
 information security program and               program’s components limited the overall program’s effectiveness
 practices were effective and consistent        to adequately protect the Agency’s information and information
 with the requirements of the Federal           systems. We concluded that these weaknesses constituted a
 Information Security Management Act            significant deficiency under FISMA.
 of 2002 (FISMA), as defined by the
 Department of Homeland Security                Our Recommendations
 (DHS).
                                                •   Formally document comprehensive policies and procedures
 Background                                         related to (1) threat identification and vulnerability management
                                                    and (2) application and system software change management
 SSA’s Office of the Inspector General              that address issues noted during the audit.
 (OIG) engaged us, Grant Thornton
 LLP (Grant Thornton), to conduct the           •   Develop a comprehensive program to identify and monitor
 Fiscal Year 2013 FISMA performance                 high-risk programs operating on the mainframe.
 audit in accordance with Government
 Auditing Standards commonly referred           •   Analyze current access authorization and removal processes to
 to as the “Yellow Book” which sets                 determine whether current controls mitigate the risk of
 forth generally accepted government                unauthorized access and modify controls considering
 auditing standards. We assessed the                automation and monitoring.
 effectiveness of SSA’s information
 security policies, procedures, and             •   Continue, as part of the SSA profile quality program, additional
 practices on a representative subset of            profile content reviews and other key profile improvement
 the Agency’s information systems by                initiatives.
 leveraging work performed as part of
 the financial statement audit and              •   Address weaknesses identified within the comments of
 through performance of additional                  Appendix B by implementing our recommendations provided
 testing procedures as needed. We                   throughout the audit in our Notices of Finding and
 determined whether SSA’s overall                   Recommendation.
 information security program and
 practices were effective and consistent
 with the requirements of FISMA and
 other applicable regulations, standards,
 and guidance applicable during the
 audit period.



SSA’s Compliance with the Federal Information Security Management Act of 2002 for Fiscal Year 2013
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Scope and Methodology ..................................................................................................................1
Results of Review ............................................................................................................................2
     Agency Efforts to Resolve Weaknesses and Potential Cause for the FY 2013 FISMA
     Significant Deficiency ...............................................................................................................7
Conclusions and Recommendations ................................................................................................7
Views of Responsible Officials .......................................................................................................8
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Response to Fiscal Year 2013 Inspector General Federal Information Security
           Management Act Reporting Metrics ...................................................................... B-1
Appendix C – The Social Security Administration’s General Support Systems and Major
           Applications ........................................................................................................... C-1
Appendix D – Metrics Defined .................................................................................................. D-1
Appendix E – Major Contributors...............................................................................................E-1




SSA’s Compliance with the Federal Information Security Management Act of 2002 for Fiscal Year 2013
ABBREVIATIONS
DHS                  Department of Homeland Security

FIPS                 Federal Information Processing Standards Publication

FISCAM               Federal Information System Controls Audit Manual

FISMA                Federal Information Security Management Act of 2002

FSA                  Financial Statement Audit

FY                   Fiscal Year

GAGAS                Generally Accepted Government Auditing Standards

GAS                  Government Auditing Standards

Grant Thornton       Grant Thornton LLP

IG                   Inspector General

IT                   Information Technology

NFR                  Notice of Finding and Recommendation

NIST                 National Institute of Standards and Technology

OMB                  Office of Management and Budget

OIG                  Office of the Inspector General

PII                  Personally Identifiable Information

Pub. L. No.          Public Law Number

SSA                  Social Security Administration

U.S.C.               United States Code




SSA’s Compliance with the Federal Information Security Management Act of 2002 for Fiscal Year 2013
OBJECTIVE
Our objective was to determine whether the Social Security Administration’s (SSA) overall
information security program and practices were effective and consistent with the requirements
of the Federal Information Security Management Act of 2002 (FISMA) as defined by the
Department of Homeland Security (DHS).

To achieve this objective, we assessed the effectiveness of SSA’s information security policies,
procedures, and practices on a representative subset of the Agency’s information systems. We
then determined whether SSA’s overall information security program and practices were
effective and consistent with the requirements of FISMA and other regulations, standards, and
guidance applicable during the audit period.

BACKGROUND
In conjunction with the audit of SSA’s Fiscal Year (FY) 2013 Financial Statements, 1 SSA’s
Office of the Inspector General (OIG) engaged us, Grant Thornton LLP (Grant Thornton), to
conduct the FY 2013 FISMA performance audit. FISMA, Title III of the E-Government Act of
2002 (Pub. L. No. 107-347, December 17, 2002), includes the following key requirements:

•      Each agency must develop, document, and implement an agency-wide information security
       program. 2

•      Each agency head is responsible for providing information security protections
       commensurate with the risk and magnitude of the harm resulting from the unauthorized
       access, use, disclosure, disruption, modification, or destruction of agency information and
       information systems. 3

•      The agency’s Inspector General (IG), or an independent external auditor, must perform an
       independent evaluation of the agency’s information security program and practices to
       determine their effectiveness. 4

SCOPE AND METHODOLOGY
On November 30, 2012, DHS issued reporting metrics for the IG’s FY 2013 FISMA submission.
We audited the following 11 reporting metrics as part of our review:




1
    Office of the Inspector General Contract Number GS-23F-8196H, December 3, 2009.
2
    Pub. L. No. 107-347, Title III, Section 301 § 3544(b); 44 U.S.C. § 3544(b).
3
    Pub. L. No. 107-347, Title III, Section 301 § 3544(a)(1)(A); 44 U.S.C. § 3544(a)(1)(A).
4
    Pub. L. No. 107-347, Title III, Section 301 §§ 3545(a)(1) and (b)(1); 44 U.S.C. §§ 3545(a)(1) and (b)(1).



SSA’s Compliance with the Federal Information Security Management Act of 2002 for Fiscal Year 2013              1
                        FY 2013 Inspector General FISMA Reporting Metrics

                    • Continuous Monitoring Management
                    • Configuration Management
                    • Identity and Access Management
                    • Incident Response and Reporting
                    • Risk Management
                    • Security Training
                    • Plan of Action & Milestones (POA&M)
                    • Remote Access Management
                    • Contingency Planning
                    • Contractor Systems
                    • Security Capital Planning

The FY 2013 SSA FISMA performance audit was performed in accordance with Government
Auditing Standards (GAS), issued by the Comptroller General of the United States, also known
as the “Yellow Book” which sets forth generally accepted government auditing standards
(GAGAS). We followed the Federal Information System Controls Audit Manual (FISCAM),
which provides guidance for evaluating Electronic Data Processing general, and application
controls in a Federal audit under GAGAS. In accordance with standards contained in GAS
issued by the Comptroller General of the United States, we leveraged work performed as part of
the FY 2013 Financial Statement Audit (FSA) and performed additional procedures as required
to assess the reporting metrics listed above.

This report informs Congress and the public about SSA’s security performance and fulfills the
Office of Management and Budget (OMB) and DHS requirements under FISMA to submit an
annual report to Congress. Refer to Appendix A for additional information on our scope and
methodology.

RESULTS OF REVIEW
For FY 2013, we determined that SSA had established an overall information security program
and practices that were generally consistent with FISMA requirements. 5 However, weaknesses
identified limited the overall program’s effectiveness to adequately protect the Agency’s
information and information systems. We concluded that each of the metrics was generally


5
 Our conclusion was based on our assessment of SSA’s compliance with DHS’ FY 2013 Inspector General Federal
Information Security Management Act Reporting Metrics. As indicated in Appendix B, we determined that SSA
established all 11 security program components, which were generally consistent with Federal guidance. The 11
components established by SSA included the vast majority of attributes identified by DHS. However, we also noted
various issues in our assessment that are documented in the comments within Appendix B.



SSA’s Compliance with the Federal Information Security Management Act of 2002 for Fiscal Year 2013             2
consistent with FISMA requirements, OMB guidance, and applicable National Institute of
Standards and Technology (NIST) standards; however, we identified weaknesses in the
following metrics:


Continuous            Configuration         Identity and          Incident             Risk
Monitoring            Management            Access                Response and         Management
Management                                  Management            Reporting


Security Training     POA&M                 Remote Access         Contingency          Contractor
                                            Management            Planning             Systems
                                                                                       Oversight


Refer to Appendix D for additional information on metrics.

Weaknesses in Section 2, Configuration Management and Section 3, Identity and Access
Management, resulted in negative conclusions to the following metrics:

Configuration Management
•   2.1.4 – Process for timely (as specified in organization policy or standards) remediation of
    scan result deviations.

•   2.1.5 - For Windows-based components, United States Government Configuration Baselines
    (USGCB) secure configuration settings are fully implemented, and any deviations from
    USGCB baseline settings are fully documented.

•   2.1.8 - Software assessing (scanning) capabilities are fully implemented.

•   2.1.9 - Configuration-related vulnerabilities, including scan findings, have been remediated
    in a timely manner, as specified in organization policy or standards.

Identity and Access Management
•   3.1.7 – Ensures that the users are granted access based on needs and separation-of-duties
    principles.

•   3.1.10 – Ensures that accounts are terminated or deactivated once access is no longer
    required.




SSA’s Compliance with the Federal Information Security Management Act of 2002 for Fiscal Year 2013   3
We provided comments on these key components of SSA’s information security program to
Management throughout the audit. 6 Refer to Appendix B for additional information on these and
other weaknesses and conclusions.

We assessed the significance of these weaknesses individually and in the aggregate to determine
the risk to SSA’s overall information systems security program and management’s control
structure. We noted that while all these findings, in aggregate, impacted risk, the following
weaknesses had the most significant impact on our conclusion:

•   Lack of a comprehensive Agency-wide policy and procedures related to vulnerability
    management, including security vulnerability identification, prioritization, categorization,
    remediation, tracking, and closure/validation - During internal penetration testing, we were
    able to take advantage of software vulnerabilities, misconfigurations, and restricted
    information to assume control of two servers, the Windows domain, as well as, gaining
    access to the mainframe without detection. This is the third successive year we have gained
    control of the SSA Windows system without detection. During subsequent assessments of
    the Agency’s overall vulnerability management process, we noted that a key scanning tool
    was not being fully used to identify vulnerabilities across SSA’s network, and Agency-wide
    comprehensive policies and procedures on vulnerability management were not established.

    The Agency corrected the specific software vulnerabilities identified during our penetration
    testing, developed configuration standards for the software, and began using more
    capabilities of the scanning tool. However, without a comprehensive process in place,
    security threats may not be appropriately prioritized and remediated.

•   Lack of comprehensive Agency-wide policy and procedures related to management of
    application and system software changes, including identification of all critical types of
    changes, security categorization and risk analysis for changes, testing requirements based on
    risk, and requirements for the review and approval of testing results – While our testing
    demonstrated that change management activities were occurring for application and system
    software changes, the Agency had not fully documented a comprehensive policy and
    procedures covering the entirety of the change management processes conducted by the
    Agency. Our testing noted the following.

            o System Software - An impact/risk assessment to determine the security
              implications for mainframe changes did not occur. Further, for the majority of
              changes tested, we noted that developers were responsible for testing their own
              changes and implementing these changes into production. While management
              performed a review to validate that updates made were associated with an
              approved change, there were no requirements nor guidance related to the types of
              testing to be performed (including security reviews), nor for retention or



6
 We provided Agency management with a Notice of Finding and Recommendation (NFR) for each individual
weakness. The NFR included the condition, criteria, cause, effect, and recommendation.



SSA’s Compliance with the Federal Information Security Management Act of 2002 for Fiscal Year 2013     4
                  independent review of testing documentation, nor validation that the change made
                  was limited to the requirements in the approved change ticket.

             o Application Changes - We noted instances where evidence to support testing and
               other requirements could not be provided.

    These issues increase the risk that changes to applications and supporting system software,
    which may impact benefit claim processing, payments, or financial data, do not function as
    intended or introduce security risks.

•   Lack of controls related to the identification and monitoring of high-risk programs operating
    on the mainframe 7 - The Agency had not finalized and fully implemented controls associated
    with ensuring that privileged programs had been approved, could only be modified
    appropriately, and posed no security risks. Management continues making control
    enhancements including, but not limited to, identifying privileged programs, the review of
    privileged programs from a security perspective, access restrictions to all privileged
    programs, and change/monitoring control enhancements.

    Without appropriate controls, there is an increased risk that the security posture and controls
    may be bypassed or compromised.

•   Access control issues - Our testing identified numerous issues with logical access controls
    that are in place to mitigate the risk of unauthorized access. Our testing identified the
    following issues:

             o Access Authorization - Our testing identified control failures related to the
               appropriate completion of authorization forms. Included in these control failures
               were new hires, transferred employees, and contractors.

             o Access Removal - Our testing identified control failures related to the timely
               removal of terminated employees’ logical access to the mainframe, network, and
               other supporting systems. Included in these control failures were instances of
               SSA and State Disability Determination Services employees who retained access
               after they were terminated. Additionally, SSA did not have an authoritative
               source to identify and manage all contractors and therefore SSA was unable to
               supply actual departure dates for contractors to substantiate timely removal of
               access.




7
  International Business Machines Corp. defines a mainframe as computers that can support thousands of
applications and input/output devices to simultaneously serve thousands of users. A mainframe is the central data
repository, or hub, in a corporation's data processing center, linked to users through less powerful devices such as
workstations or terminals.



SSA’s Compliance with the Federal Information Security Management Act of 2002 for Fiscal Year 2013                     5
             o Profile 8 Content and Analysis Review Program and Supporting Profile Controls -
               SSA Management continues to make progress in assessing profile content to
               validate that profiles only provide access to the minimal resources required for
               users to complete job functions. However, SSA had not completed the review of
               all profiles that are relevant to critical applications and supporting systems nor had
               SSA completed other profile quality initiatives including, but not limited to, some
               control enhancements.

        As a result of these deficiencies, we noted numerous issues of unauthorized and
        inappropriate access including application developers (programmers) with unmonitored
        access to production data and application transactions, access to key transactions and
        data, key change management libraries, and other sensitive system software resources.

For FY 2013, we concluded that the risk and severity of SSA’s information security weaknesses,
including those highlighted above and other weaknesses outlined in Appendix B, were great
enough to constitute a significant deficiency under FISMA. These weaknesses could result in
losses of confidentiality, integrity, and availability of SSA information systems and data. 9

OMB defines a FISMA significant deficiency as, “. . . a weakness in an agency’s overall
information systems security program or management control structure, or within one or more
information systems, that significantly restricts the capability of the agency to carry out its
mission or compromises the security of its information, information systems, personnel, or other
resources, operations, or assets. In this context, the risk is great enough that the agency head and
outside agencies must be notified and immediate or near-immediate corrective action must be
taken.” 10

These security deficiencies, when aggregated, created a weakness in SSA’s overall information
systems security program that we concluded significantly compromised the security of its
information and information systems.




8
  A profile is one of SSA’s primary access control mechanisms. Each profile contains a unique mix of facilities and
transactions that determines what access to systems resources a specific position needs.
9
  Confidentiality means preserving authorized restrictions on access and disclosure, including means for protecting
personal privacy and proprietary information. Integrity means guarding against improper information modification
or destruction, and includes ensuring information nonrepudiation and authenticity. Availability means ensuring
timely and reliable access to and use of information. Pub. L. No. 107-347, Title III, Section 301 § 3542(b)(1)(A) to
(C), 44 U.S.C. § 3542(b)(1)(A) to (C).
10
  OMB, M-14-04, FY 2013 Reporting Instructions for the Federal Information Security Management Act and
Agency Privacy Management, November 18, 2013, page 8.



SSA’s Compliance with the Federal Information Security Management Act of 2002 for Fiscal Year 2013                 6
Agency Efforts to Resolve Weaknesses and Potential Cause for the
FY 2013 FISMA Significant Deficiency
In response to the FY 2012 material weakness in information systems controls reported within
the internal controls opinion 11 and FY 2012 FISMA significant deficiency, 12 SSA developed
functional remediation teams to investigate issues, identify root causes, and implement corrective
actions. Each functional remediation team, with oversight from SSA leadership, took risk-based
approaches to remediation—addressing higher risk areas immediately, and planning for future
security enhancements. Management’s risk based approach included correction of
vulnerabilities identified through our specific tests as well as development and implementation of
institutionalized and repeatable processes to prevent future weaknesses.

While SSA made significant efforts to strengthen controls over its systems and address
weaknesses, our FY 2013 testing continued to identify general control issues in both design and
operation of key controls. We believe that in many cases these deficiencies continue to exist
because of one or a combination of the following:

•    Control enhancements and newly designed controls require additional time to effectuate
     throughout the environment;

•    By focusing resources on higher risk weaknesses, SSA was unable to implement corrective
     action for all aspects of the prior year issues; and/or,

•    The design and/or operational effectiveness of enhanced or newly designed controls did not
     completely address risks.

SSA continues to implement corrective actions to address remaining deficiencies, which in many
cases, is a continuation of previously established risk based strategies.

CONCLUSIONS AND RECOMMENDATIONS
For FY 2013, we determined that SSA had established an overall information security program
and practices that were generally consistent with FISMA requirements. However, weaknesses in
some of the program’s components limited the overall program’s effectiveness to adequately
protect the Agency’s information and information systems. We noted weaknesses within
Section 2, Configuration Management, and Section 3, Identity and Access Management, that
resulted in negative answers to metrics and various other issues that resulted in comments to the
FISMA metrics located in Appendix B. Based on these factors, we concluded that these
weaknesses constituted a significant deficiency under FISMA.


11
  Grant Thornton, Independent Auditor’s Report on the audit of SSA’s FY 2012 financial statements, November 8,
2012.
12
  SSA OIG, The Social Security Administration’s Compliance with the Federal Information Security Management
Act of 2002 for the Fiscal year 2012, (A-14-12-12120), November 15, 2012.



SSA’s Compliance with the Federal Information Security Management Act of 2002 for Fiscal Year 2013               7
SSA needs to protect its mission-critical assets. Without appropriate security, the Agency’s
systems and the sensitive data they contain are at risk. Some weaknesses identified in this report
could cause the Agency’s systems and data to lose confidentiality, integrity, and availability to
some degree.

To mitigate the risks of the issues noted in the significant deficiency, management should
consider the following:

•    Formally document comprehensive policies and procedures related to (1) threat identification
     and vulnerability management and (2) application and system software change management
     that address issues noted during the audit.

•    Develop a comprehensive program to identify and monitor high-risk programs operating on
     the mainframe.

•    Analyze current access authorization and removal processes to determine whether current
     controls mitigate the risk of unauthorized access and modify controls considering automation
     and monitoring.

•    Continue, as part of the SSA profile quality program, additional profile content reviews and
     other key profile improvement initiatives.

•    Address weaknesses identified within the comments of Appendix B by implementing our
     recommendations provided throughout the audit in our Notices of Finding and
     Recommendation.

VIEWS OF RESPONSIBLE OFFICIALS
Our conclusions were discussed with SSA responsible officials who generally agreed with our
findings and recommendations. SSA’s official responses will be included in their comments to
the independent auditor’s report on the audit of SSA’s FY 2013 financial statements. 13




13
 Grant Thornton, Independent Auditor’s Report on SSA’s FY 2013 financial statements will be released in
December 2013.



SSA’s Compliance with the Federal Information Security Management Act of 2002 for Fiscal Year 2013        8
                                       APPENDICES




SSA’s Compliance with the Federal Information Security Management Act of 2002 for Fiscal Year 2013
Appendix A – SCOPE AND METHODOLOGY
The Federal Information Security Management Act of 2002 (FISMA) directs each agency’s
Inspector General (IG) to perform, or have an independent external auditor perform, an annual
independent evaluation of the agency’s information security programs and practices, as well as a
review of an appropriate subset of agency systems. 1 The Social Security Administration’s (SSA)
IG contracted with us, Grant Thornton LLP (Grant Thornton), to audit the SSA’s Fiscal Year
(FY) 2013 financial statements. 2 Because of the extensive internal control system work that is
completed as part of that audit, the FISMA review requirements were incorporated into our
financial statement audit (FSA) contract. To maximize efficiencies and minimize the impact to
SSA management during the FISMA performance audit, we used Appendix IX – Application of
FISCAM to FISMA from the GAO Federal Information System Controls Audit Manual
(FISCAM) in order to leverage testing performed during the SSA FSA. Additionally, governed
by the 2011 Government Audit Standards Chapters 1 through 3, 6, and 7 – in particular
Chapter 6, Field Work Standards for Performance Audits - Using the Work of Others, we
leveraged the information technology general controls testing performed during the FSA
wherever it was deemed appropriate. In some cases, FISMA tests were unique from those of the
FSA; therefore, we designed test procedures to deliver adequate coverage over those unique
areas.

Testing was performed in accordance with specific criteria as promulgated by the following:

•     FISMA law;

•     Office of Management and Budget (OMB) guidance;

•     Department of Homeland Security (DHS) annual FISMA reporting instructions and annual
      FISMA IG reporting metrics, OMB Circular A-130, Management of Federal Information
      Resources, Appendix III, Security of Federal Automated Information Resources;

•     Standards and guidelines issued by the National Institute of Standards and Technology
      (NIST) – including, NIST Special Publication (SP) 800-53 Revision 3 Recommended
      Security Controls for Federal Information Systems and Organizations;

•     Federal Information Processing Standards Publication (FIPS) - 199, Standards for Security
      Categorization of Federal Information and Information Systems, FIPS-200 Minimum
      Security Requirements for Federal Information and Information Systems, FIPS- 201-1,
      Personal Identity Verification (PIV) of Federal Employees and Contractors;




1
  Pub. L. No. 107-347, Title III, Section 301 §§ 3545(a)(1), (a)(2)(A), (a)(2)(B); and (b)(1), 44 U.S.C. §§ 3545(a)(1)
(a)(2)(A), (a)(2)(B); and (b)(1).
2
    Office of the Inspector General Contract Number GS-23F-8196H, December 3, 2009.



SSA’s Compliance with the Federal Information Security Management Act of 2002 for Fiscal Year 2013                A-1
•   Federal Information Security Memorandum 13-01, FY 2013 Metrics for the Federal
    Information Security Management Act and Agency Privacy Management Act and
    Operational Reporting Instructions;

•   Federal guidance and standards cited in the DHS annual FISMA IG reporting metrics; and,

•   Local SSA policies.

Our assessment followed the DHS FY 2013 FISMA guidance 3 and focused on Risk
Management, Configuration Management, Incident Response and Reporting, Security Training,
Plan of Action and Milestones, Remote Access Management, Identity and Access Management,
Continuous Monitoring Management, Contingency Planning, Contractor Systems, and Security
Capital Planning.

We conducted this audit in accordance with generally accepted government auditing standards.
These standards required that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on the audit objectives.




3
 DHS Federal Information Security Memorandum 13-01, FY 2013 Metrics for the Federal Information Security
Management Act and Agency Privacy Management Act and Operational Reporting Instructions, September 2013.



SSA’s Compliance with the Federal Information Security Management Act of 2002 for Fiscal Year 2013     A-2
Appendix B – RESPONSE TO FISCAL YEAR 2013 INSPECTOR
             GENERAL F EDERAL I NFORMATION S ECURITY
             M ANAGEMENT ACT REPORTING METRICS

 Section 1: CONTINUOUS MONITORING MANAGEMENT


1.1.    Has the organization established an enterprise-wide continuous monitoring
        program that assesses the security state of information systems that is consistent
        with FISMA requirements, OMB policy, and applicable NIST guidelines? Besides
        the improvement opportunities that may have been identified by the OIG, does the
        program include the following attributes?

        FY2013 Conclusion: Yes

        1.1.1. Documented policies and procedures for continuous monitoring (NIST SP
               800-53: CA-7). (AP)

                FY2013 Conclusion: Yes

                Comments: N/A

        1.1.2. Documented strategy and plans for continuous monitoring (NIST SP 800-37
               Rev. 1, Appendix G). (AP)

                FY2013 Conclusion: Yes

                Comments: N/A

        1.1.3. Ongoing assessments of security controls (system-specific, hybrid, and
               common) that have been performed based on the approved continuous
               monitoring plans (NIST SP 800-53, 800-53A). (AP)

                FY2013 Conclusion: Yes

                Comments: We noted that the SSA continuous monitoring strategy includes
                manual control assessments and automated reporting mechanisms. Per the
                strategy, security controls currently selected for automated continuous monitoring
                are primarily technical controls that automated support tools can monitor and
                controls that may change frequently due to architectural or environment
                modifications such as updates and upgrades to hardware or software
                configurations. In regards to configuration standards, we noted that SSA made
                significant progress in developing baselines for authorized platforms in FY 2013;
                however, had not developed configuration baselines for all authorized platforms.
                In regards to vulnerability scanning capabilities, we noted the scanning tool used


SSA’s Compliance with the Federal Information Security Management Act of 2002 for Fiscal Year 2013   B-1
                by the Security Operations Center was not being utilized to its full capability for
                part of the fiscal year.

        1.1.4. Provides authorizing officials and other key system officials with security
               status reports covering updates to security plans and security assessment
               reports, as well as a common and consistent POA&M program that is
               updated with the frequency defined in the strategy and/or plans (NIST SP
               800-53, 800-53A). (AP)

                FY2013 Conclusion: Yes

                Comments: We noted that SSA continued to enhance automated continuous
                monitoring reporting capabilities in FY 2013. Per the continuous monitoring
                strategy, the successful implementation of the SSA continuous monitoring
                strategy will require a sustained effort contingent upon the availability of funding
                and support from Agency components.

1.2.    Please provide any additional information on the effectiveness of the organization’s
        Continuous Monitoring Management Program that was not noted in the questions
        above.

                Comments: N/A


 Section 2: CONFIGURATION MANAGEMENT


2.1.    Has the organization established a security configuration management program
        that is consistent with FISMA requirements, OMB policy, and applicable NIST
        guidelines? Besides the improvement opportunities that may have been identified
        by the OIG, does the program include the following attributes?

        FY2013 Conclusion: Yes

        2.1.1. Documented policies and procedures for configuration management. (Base)

                FY2013 Conclusion: Yes

                Comments: We noted that while compartmentalized policies and procedures
                existed, SSA lacked a comprehensive Agency-wide policy and procedures related
                to application and system software change management including identification
                of all critical types of changes, security categorization and risk analysis for
                changes, testing requirements based on risk, and requirements for the review and
                approval of testing results.

        2.1.2. Defined standard baseline configurations. (Base)

                FY2013 Conclusion: Yes


SSA’s Compliance with the Federal Information Security Management Act of 2002 for Fiscal Year 2013   B-2
                Comments: We noted that SSA established a list of authorized infrastructure
                software (platforms), had developed baselines for the majority of key platforms,
                and made significant progress in developing additional configuration baselines in
                FY 2013. However, it had not developed configuration baselines for all
                authorized platforms. Further, requirements associated with approval to deviate
                from agency security standards or configurations by submitting an exception
                request for software not on the authorized platform list were not in place during
                the entire fiscal year.

        2.1.3. Assessments of compliance with baseline configurations. (Base)

                FY2013 Conclusion: Yes

                Comments: We noted the following regarding compliance with baseline
                configurations:
                   • Lack of configuration baselines for some platforms;
                   • Internal penetration testing identified high risk vulnerabilities due to
                       unpatched software and misconfigurations, which resulted in testers
                       obtaining domain administrative rights and access to the mainframe; and,
                   • Assessments of key configurations and access rights on significant
                       platforms identified issues including misconfigurations.

        2.1.4. Process for timely (as specified in organization policy or standards)
               remediation of scan result deviations. (Base)

                FY2013 Conclusion: No

                Comments: We noted that SSA had processes in place for remediation of results
                identified through scanning and internal penetration testing. However, we noted
                SSA lacked a comprehensive Agency-wide policy and procedures related to
                vulnerability management including security vulnerability identification,
                prioritization, categorization, remediation, tracking, and closure / validation.
                Without appropriate prioritization, higher risk vulnerabilities may not be
                remediated timely as demonstrated by internal penetration testing results.

        2.1.5. For Windows-based components, USGCB secure configuration settings are
               fully implemented, and any deviations from USGCB baseline settings are
               fully documented. (Base)

                FY2013 Conclusion: No

                Comments: We noted that documentation for a significant number of deviations
                from the USGCB settings did not provide sufficient information pertaining to risk
                analysis and business justification for the deviation.

        2.1.6. Documented proposed or actual changes to hardware and software
               configurations. (Base)


SSA’s Compliance with the Federal Information Security Management Act of 2002 for Fiscal Year 2013   B-3
                FY2013 Conclusion: Yes

                Comments: We noted that while testing demonstrated that change management
                activities were occurring for both application and system software changes, the
                Agency had not fully documented a comprehensive policy and procedures
                covering the entirety of change management processes conducted by the Agency.
                In addition, our testing identified system software weaknesses including
                completion of impact risk assessments, completion of test plans and retention of
                testing output, independent review of testing as well as validation changes were
                limited to those identified in the change request. For application changes, we
                noted instances where evidence to support testing and other requirements could
                not be provided.

                In addition, the Agency had not finalized and fully implemented controls
                associated with ensuring that mainframe privileged programs have been approved,
                can only be modified appropriately, and pose no security risks.

        2.1.7. Process for timely and secure installation of software patches. (Base)

                FY2013 Conclusion: Yes

                Comments: We noted that SSA had established a patch management process;
                however, issues associated with the ability to identify and remediate
                vulnerabilities in a timely manner impact the Agency’s ability to prioritize
                software patches. Without appropriate prioritization, higher risk vulnerabilities
                may not be remediated timely as demonstrated by internal penetration testing
                results.

        2.1.8. Software assessing (scanning) capabilities are fully implemented (NIST SP
               800-53: RA-5, SI-2). (Base)

                FY2013 Conclusion: No

                Comments: We noted the scanning tool used by the Security Operations Center
                was not being utilized to its full capability for part of the fiscal year.

        2.1.9. Configuration-related vulnerabilities, including scan findings, have been
               remediated in a timely manner, as specified in organization policy or
               standards (NIST SP 800-53: CM-4, CM-6, RA-5, SI-2). (Base)

                FY2013 Conclusion: No

                Comments: We noted that SSA had processes in place for remediation of scan
                results identified through scanning and internal penetration testing. However, we
                noted SSA lacked a comprehensive Agency-wide policy and procedures related to
                vulnerability management including security vulnerability identification,
                prioritization, categorization, remediation, tracking, and closure / validation.
                Without appropriate prioritization, higher risk vulnerabilities may not be

SSA’s Compliance with the Federal Information Security Management Act of 2002 for Fiscal Year 2013   B-4
                remediated timely as demonstrated by internal penetration testing results. In
                addition, misconfigurations were identified through testing of configurations on
                key platforms.

        2.1.10. Patch management process is fully developed, as specified in organization
                policy or standards (NIST SP 800-53: CM-3, SI-2). (Base)

                FY2013 Conclusion: Yes

                Comments: We noted that SSA had established a patch management process;
                however, issues associated with the ability to identify and remediate
                vulnerabilities in a timely manner impact the Agency’s ability to prioritize
                software patches. Without appropriate prioritization, higher risk vulnerabilities
                may not be remediated timely as demonstrated by internal penetration testing
                results.

2.2.    Please provide any additional information on the effectiveness of the organization’s
        Configuration Management Program that was not noted in the questions above.

                Comments: N/A


 Section 3: IDENTITY AND ACCESS MANAGEMENT


3.1.    Has the organization established an identity and access management program that
        is consistent with FISMA requirements, OMB policy, and applicable NIST
        guidelines and which identifies users and network devices? Besides the
        improvement opportunities that have been identified by the OIG, does the program
        include the following attributes?

        FY2013 Conclusion: Yes

        3.1.1. Documented policies and procedures for account and identity management
        (NIST SP 800-53: AC-1). (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

        3.1.2. Identifies all users, including Federal employees, contractors, and others who
               access organization systems (NIST SP 800-53, AC-2). (Base)

                FY2013 Conclusion: Yes

                Comments: Although the Agency was able to identify all users, including
                contractors, with access to the mainframe and all employees with access to the



SSA’s Compliance with the Federal Information Security Management Act of 2002 for Fiscal Year 2013   B-5
                network, SSA did not have an authoritative source / system(s) that identified and
                managed all contractors.

        3.1.3. Identifies when special access requirements (e.g., multi-factor authentication)
               are necessary. (Base)

                FY2013 Conclusion: Yes

                Comments: We noted that SSA identified when special access requirements were
                necessary; however, we also noted that application developers had access to the
                production environment. These users did not obtain this access through the
                secondary ID process, which is a highly monitored process whereby programmers
                gain access to production for a limited time, and activity is subject to review.

        3.1.4. If multi-factor authentication is in use, it is linked to the organization’s PIV
               program where appropriate (NIST SP 800-53, IA-2). (KFM)

                FY2013 Conclusion: Yes

                Comments: N/A

        3.1.5. Organization has planned for implementation of PIV for logical access in
               accordance with government policies (HSPD 12, FIPS 201, OMB M-05-24,
               OMB M-07-06, OMB M-08-01, OMB M-11-11). (AP)

                FY2013 Conclusion: Yes

                Comments: N/A

        3.1.6. Organization has adequately planned for implementation of PIV for physical
               access in accordance with government policies (HSPD 12, FIPS 201, OMB
               M-05-24, OMB M-07-06, OMB M-08-01, OMB M-11-11).

                FY2013 Conclusion: Yes

                Comments: N/A

        3.1.7. Ensures that the users are granted access based on needs and separation-of-
               duties principles. (Base)

                FY2013 Conclusion: No

                Comments: We identified numerous issues with logical access controls which
                resulted in inappropriate and / or unauthorized access including application
                developers (programmers) with unmonitored access to production and application
                transactions, access to key transactions and data, key change management
                libraries, and other sensitive system software resources.



SSA’s Compliance with the Federal Information Security Management Act of 2002 for Fiscal Year 2013   B-6
        3.1.8. Identifies devices with IP addresses that are attached to the network and
               distinguishes these devices from users. (For example: IP phones, faxes,
               printers are examples of devices attached to the network that are
               distinguishable from desktops, laptops, or servers that have user accounts.)
               (Base)

                FY2013 Conclusion: Yes

                Comments: The OIG Audit Report A-14-13-13050, The Social Security
                Administration’s Process to Identify and Monitor the Security of Hardware
                Devices Connected to its Network, noted that while the Agency has a process to
                identify hardware devices connected to its network, we [the IG] determined the
                Agency’s inventory was incomplete and inaccurate. Additionally, SSA did not
                approve all of the hardware devices connected to its network. Moreover, although
                SSA has processes to monitor the security level of connected devices, they were
                inconsistent with Agency policy in effect at the time of our [the IG] audit.

        3.1.9. Identifies all user and non-user accounts (Refers to user accounts that are on
               a system. Data user accounts are created to pull generic information from a
               database or a guest/anonymous account for generic login purposes. They are
               not associated with a single user or a specific group of users) (Base)

                FY2013 Conclusion: Yes

                Comments: We noted that SSA was able to identify user and non-user accounts.
                However, we noted instances where default account passwords had not been
                changed, access to a generic account that was not required by a user, a lack of
                requirements to periodically change passwords for system accounts, and issues
                associated with the management of vendor accounts.

        3.1.10. Ensures that accounts are terminated or deactivated once access is no longer
                required. (Base)

                FY2013 Conclusion: No

                Comments: We identified control failures related to the timely removal of logical
                access for terminated employees to the mainframe, network, and other supporting
                systems. Included in these control failures were instances of SSA employees and
                state Disability Determination Services employees. Additionally, SSA did not
                have an authoritative source that identified and managed all contractors and
                therefore was unable to support actual departure dates for contractors.

        3.1.11. Identifies and controls use of shared accounts. (Base)

                FY2013 Conclusion: Yes

                Comments: We noted instances where default account passwords had not been
                changed, access to a generic account that was not required by a user, a lack of

SSA’s Compliance with the Federal Information Security Management Act of 2002 for Fiscal Year 2013   B-7
                requirements to periodically change passwords for system accounts, and issues
                associated with the management of vendor accounts.

3.2.    Please provide any additional information on the effectiveness of the organization’s
        Identity and Access Management Program that was not noted in the questions
        above.

                Comments: N/A


 Section 4: INCIDENT RESPONSE AND REPORTING


4.1.    Has the organization established an incident response and reporting program that is
        consistent with FISMA requirements, OMB policy, and applicable NIST guidelines?
        Besides the improvement opportunities that may have been identified by the OIG,
        does the program include the following attributes?

        FY2013 Conclusion: Yes

        4.1.1. Documented policies and procedures for detecting, responding to and
        reporting incidents (NIST SP 800-53: IR-1). (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

        4.1.2. Comprehensive analysis, validation and documentation of incidents. (KFM)

                FY2013 Conclusion: Yes

                Comments: N/A

        4.1.3. When applicable, reports to US-CERT within established timeframes (NIST
               SP 800-53, 800-61; OMB M-07-16, M-06-19). (KFM)

                FY2013 Conclusion: Yes

                Comments: N/A

        4.1.4. When applicable, reports to law enforcement within established timeframes
               (SP 800-61). (KFM)

                FY2013 Conclusion: Yes

                Comments: We noted the incident reporting policy included information about
                reporting of incidents to law enforcement including but not limited to the OIG,
                Federal Protective Services and local law enforcement; however, the policy did


SSA’s Compliance with the Federal Information Security Management Act of 2002 for Fiscal Year 2013   B-8
                not specify the established timeframes in which incidents should be reported to
                law enforcement.

        4.1.5. Responds to and resolves incidents in a timely manner, as specified in
               organization policy or standards, to minimize further damage (NIST SP 800-
               53, 800-61; OMB M-07-16, M-06-19). (KFM)

                FY2013 Conclusion: Yes

                Comments: We noted that the SSA incident response procedures did not provide
                guidance or directives associated with establishing timeframes in which incidents
                should be resolved.

        4.1.6. Is capable of tracking and managing risks in a virtual/cloud environment, if
               applicable. (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

        4.1.7. Is capable of correlating incidents. (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

        4.1.8. Has sufficient incident monitoring and detection coverage in accordance with
               government policies (NIST SP 800-53, 800-61; OMB M-07-16, M-06-19).
               (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

4.2.    Please provide any additional information on the effectiveness of the organization’s
        Incident Management Program that was not noted in the questions above.

                Comments: N/A


 Section 5: RISK MANAGEMENT


5.1.    Has the organization established a risk management program that is consistent with
        FISMA requirements, OMB policy, and applicable NIST guidelines? Besides the
        improvement opportunities that may have been identified by the OIG, does the
        program include the following attributes?

        FY2013 Conclusion: Yes

SSA’s Compliance with the Federal Information Security Management Act of 2002 for Fiscal Year 2013   B-9
        5.1.1. Documented policies and procedures for risk management, including
               descriptions of the roles and responsibilities of participants in this process.
               (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

        5.1.2. Addresses risk from an organization perspective with the development of a
               comprehensive governance structure and organization-wide risk
               management strategy as described in NIST 800-37, Rev.1. (Base)

                FY2013 Conclusion: Yes

                Comments: We noted that SSA had a comprehensive governance structure and
                organization-wide risk management strategy. However, we noted instances where
                off-site locations did not consistently apply SSA guidance such as requirements
                within the Program Operations Manual System.

        5.1.3. Addresses risk from a mission and business process perspective and is guided
               by the risk decisions from an organizational perspective, as described in
               NIST SP 800-37, Rev.1. (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

        5.1.4. Addresses risk from an information system perspective and is guided by the
               risk decisions from an organizational perspective and the mission and
               business perspective, as described in NIST 800-37, Rev. 1. (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

        5.1.5. Has an up-to-date system inventory. (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

        5.1.6. Categorizes information systems in accordance with government policies.
               (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

        5.1.7. Selects an appropriately tailored set of baseline security controls. (Base)

SSA’s Compliance with the Federal Information Security Management Act of 2002 for Fiscal Year 2013   B-10
                FY2013 Conclusion: Yes

                Comments: N/A

        5.1.8. Implements the tailored set of baseline security controls and describes how
               the controls are employed within the information system and its environment
               of operation. (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

        5.1.9. Assesses the security controls using appropriate assessment procedures to
               determine the extent to which the controls are implemented correctly,
               operating as intended, and producing the desired outcome with respect to
               meeting the security requirements for the system. (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

        5.1.10. Authorizes information system operation based on a determination of the
                risk to organizational operations and assets, individuals, other organizations,
                and the Nation resulting from the operation of the information system and
                the decision that this risk is acceptable. (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

        5.1.11. Ensures information security controls are monitored on an ongoing basis,
                including assessing control effectiveness, documenting changes to the system
                or its environment of operation, conducting security impact analyses of the
                associated changes, and reporting the security state of the system to
                designated organizational officials. (Base)

                FY2013 Conclusion: Yes

                Comments: We noted that SSA continued to enhance automated continuous
                monitoring reporting capabilities in FY 2013. Per SSA’s continuous monitoring
                strategy, successful implementation of the SSA continuous monitoring strategy
                will require a sustained effort contingent upon the availability of funding and
                support from Agency components.

        5.1.12. Information-system-specific risks (tactical), mission/business-specific risks
                and organizational-level (strategic) risks are communicated to appropriate
                levels of the organization. (Base)



SSA’s Compliance with the Federal Information Security Management Act of 2002 for Fiscal Year 2013   B-11
                FY2013 Conclusion: Yes

                Comments: N/A

        5.1.13. Senior officials are briefed on threat activity on a regular basis by
                appropriate personnel (e.g., CISO). (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

        5.1.14. Prescribes the active involvement of information system owners and common
                control providers, chief information officers, senior information security
                officers, authorizing officials, and other roles as applicable in the ongoing
                management of information-system-related security risks. (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

        5.1.15. Security authorization package contains system security plan, security
                assessment report, and POA&M in accordance with government policies
                (NIST SP 800-18, 800-37). (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

        5.1.16. Security authorization package contains accreditation boundaries, defined in
                accordance with government policies, for organization information systems.
                (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

5.2.    Please provide any additional information on the effectiveness of the organization’s
        Risk Management Program that was not noted in the questions above.

                Comments: N/A


 Section 6: SECURITY TRAINING


6.1.    Has the organization established a security training program that is consistent with
        FISMA requirements, OMB policy, and applicable NIST guidelines? Besides the
        improvement opportunities that may have been identified by the OIG, does the
        program include the following attributes?

SSA’s Compliance with the Federal Information Security Management Act of 2002 for Fiscal Year 2013   B-12
        FY2013 Conclusion: Yes

        6.1.1. Documented policies and procedures for security awareness training (NIST
               SP 800-53: AT-1). (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

        6.1.2. Documented policies and procedures for specialized training for users with
               significant information security responsibilities. (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

        6.1.3. Security training content based on the organization and roles, as specified in
               organization policy or standards. (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

        6.1.4. Identification and tracking of the status of security awareness training for all
               personnel (including employees, contractors, and other organization users)
               with access privileges that require security awareness training. (KFM)

                FY2013 Conclusion: Yes

                Comments: We noted that SSA did not have an authoritative source / system(s)
                that identified and managed all contractors. Therefore, we were not able to gain
                reasonable assurance that the contractor population was complete. Without a
                complete population, the Agency may not be able to identify and track all
                contractors that require security awareness training. In addition, we noted that
                security training was not completed in a timely fashion for all employees and
                contractors (those that we were able to assess) or evidence to support completion
                of security training was not provided.

        6.1.5. Identification and tracking of the status of specialized training for all
               personnel (including employees, contractors, and other organization users)
               with significant information security responsibilities that require specialized
               training. (KFM)

                FY2013 Conclusion: Yes

                Comments: N/A




SSA’s Compliance with the Federal Information Security Management Act of 2002 for Fiscal Year 2013   B-13
        6.1.6. Training material for security awareness training contains appropriate
               content for the organization (NIST SP 800-50, 800-53). (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

6.2.    Please provide any additional information on the effectiveness of the organization’s
        Security Training Program that was not noted in the questions above.

                Comments: N/A


 Section 7: PLAN OF ACTION & MILESTONES (POA&M)


7.1.    Has the organization established a POA&M program that is consistent with FISMA
        requirements, OMB policy, and applicable NIST guidelines and tracks and
        monitors known information security weaknesses? Besides the improvement
        opportunities that may have been identified by the OIG, does the program include
        the following attributes?

        FY2013 Conclusion: Yes

        7.1.1. Documented policies and procedures for managing IT security weaknesses
               discovered during security control assessments and that require remediation.
               (Base)

                FY2013 Conclusion: Yes

                Comments: We noted that although key activities associated with tracking and
                monitoring IT security weaknesses were being performed, Management had not
                fully documented a comprehensive policy and procedures covering all of the
                Agency’s processes. Current policies and procedures associated with tracking of
                IT weaknesses, including the POA&M process, did not encompass the multiple
                tools and methods used by Management.

        7.1.2. Tracks, prioritizes and remediates weaknesses. (Base)

                FY2013 Conclusion: Yes

                Comments: We noted instances where Information Technology security
                weaknesses were inadvertently “closed” within the Agency’s tracking tool even
                though they remained open. It was noted that these items were subsequently
                corrected by Management.

        7.1.3. Ensures remediation plans are effective for correcting weaknesses. (Base)

                FY2013 Conclusion: Yes

SSA’s Compliance with the Federal Information Security Management Act of 2002 for Fiscal Year 2013   B-14
                Comments: N/A

        7.1.4. Establishes and adheres to milestone remediation dates. (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

        7.1.5. Ensures resources and ownership are provided for correcting weaknesses.
               (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

        7.1.6. POA&Ms include security weaknesses discovered during assessments of
               security controls and that require remediation (do not need to include
               security weakness due to a risk-based decision to not implement a security
               control) (OMB M-04-25). (Base)

                FY2013 Conclusion: Yes

                Comments: We noted instances where Information Technology (IT) security
                weaknesses were inadvertently “closed” within the Agency’s tracking tool even
                though they remained open. It was noted that these items were subsequently
                corrected by Management.

        7.1.7. Costs associated with remediating weaknesses are identified (NIST SP 800-
               53, Rev. 3, Control PM-3; OMB M-04-25). (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

        7.1.8. Program officials report progress on remediation to CIO on a regular basis,
               at least quarterly, and the CIO centrally tracks, maintains, and
               independently reviews/validates the POA&M activities at least quarterly
               (NIST SP 800-53, Rev. 3, Control CA-5; OMB M-04-25). (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

7.2.    Please provide any additional information on the effectiveness of the organization’s
        POA&M Program that was not noted in the questions above.

                Comments: N/A



SSA’s Compliance with the Federal Information Security Management Act of 2002 for Fiscal Year 2013   B-15
 Section 8: REMOTE ACCESS MANAGEMENT


8.1.    Has the organization established a remote access program that is consistent with
        FISMA requirements, OMB policy, and applicable NIST guidelines? Besides the
        improvement opportunities that may have been identified by the OIG, does the
        program include the following attributes?

        FY2013 Conclusion: Yes

        8.1.1. Documented policies and procedures for authorizing, monitoring, and
               controlling all methods of remote access (NIST SP 800-53: AC-1, AC-17).
               (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

        8.1.2. Protects against unauthorized connections or subversion of authorized
               connections. (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

        8.1.3. Users are uniquely identified and authenticated for all access (NIST SP 800-
               46, Section 4.2, Section 5.1). (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

        8.1.4. Telecommuting policy is fully developed (NIST SP 800-46, Section 5.1).
               (Base)

                FY2013 Conclusion: Yes

                Comments: We noted that SSA’s revised telework policy was in draft form
                pending resolution of administrative matters.

        8.1.5. If applicable, multi-factor authentication is required for remote access (NIST
               SP 800-46, Section 2.2, Section 3.3). (KFM)

                FY2013 Conclusion: Yes

                Comments: N/A



SSA’s Compliance with the Federal Information Security Management Act of 2002 for Fiscal Year 2013   B-16
        8.1.6. Authentication mechanisms meet NIST SP 800-63 guidance on remote
               electronic authentication, including strength mechanisms. (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

        8.1.7. Defines and implements encryption requirements for information
               transmitted across public networks. (KFM)

                FY2013 Conclusion: Yes

                Comments: N/A

        8.1.8. Remote access sessions, in accordance with OMB M-07-16, are timed-out
               after 30 minutes of inactivity, after which re-authentication is required.
               (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

        8.1.9. Lost or stolen devices are disabled and appropriately reported (NIST SP 800-
               46, Section 4.3; US-CERT Incident Reporting Guidelines). (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

        8.1.10. Remote access rules of behavior are adequate in accordance with
                government policies (NIST SP 800-53, PL-4). (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

        8.1.11. Remote-access user agreements are adequate in accordance with government
                policies (NIST SP 800-46, Section 5.1; NIST SP 800-53, PS-6). (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

8.2.    Please provide any additional information on the effectiveness of the organization’s
        Remote Access Management that was not noted in the questions above.

                Comments: N/A



SSA’s Compliance with the Federal Information Security Management Act of 2002 for Fiscal Year 2013   B-17
8.3.    Does the organization have a policy to detect and remove unauthorized (rogue)
        connections?

                FY 2013 Conclusion: Yes

                Comments: N/A


 Section 9: CONTINGENCY PLANNING


9.1.    Has the organization established an enterprise-wide business continuity/disaster
        recovery program that is consistent with FISMA requirements, OMB policy, and
        applicable NIST guidelines? Besides the improvement opportunities that may have
        been identified by the OIG, does the program include the following attributes?

        FY2013 Conclusion: Yes

        9.1.1. Documented business continuity and disaster recovery policy providing the
               authority and guidance necessary to reduce the impact of a disruptive event
               or disaster (NIST SP 800-53: CP-1). (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

        9.1.2. The organization has incorporated the results of its system’s Business Impact
               Analysis (BIA) into the analysis and strategy development efforts for the
               organization’s Continuity of Operations Plan (COOP), Business Continuity
               Plan (BCP), and Disaster Recovery Plan (DRP) (NIST SP 800-34). (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

        9.1.3. Development and documentation of division, component, and IT
               infrastructure recovery strategies, plans and procedures (NIST SP 800-34).
               (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

        9.1.4. Testing of system specific contingency plans. (Base)

                FY2013 Conclusion: Yes




SSA’s Compliance with the Federal Information Security Management Act of 2002 for Fiscal Year 2013   B-18
                Comments: We noted that SSA tested the majority of, but not all, major
                applications and/or general support systems as part of the disaster recovery
                exercise.

        9.1.5. The documented BCP and DRP are in place and can be implemented when
               necessary (FCD1, NIST SP 800-34). (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

        9.1.6. Development of test, training, and exercise (TT&E) programs (FCD1, NIST
               SP 800-34, NIST SP 800-53). (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

        9.1.7. Testing or exercising of BCP and DRP to determine effectiveness and to
               maintain current plans. (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

        9.1.8. After-action report that addresses issues identified during
               contingency/disaster recovery exercises (FCD1, NIST SP 800-34). (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

        9.1.9. Systems that have alternate processing sites (FCD1, NIST SP 800-34, NIST
               SP 800-53). (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

        9.1.10. Alternate processing sites are not subject to the same risks as primary sites
                (FCD1, NIST SP 800-34, NIST SP 800-53).

                FY2013 Conclusion: Yes

                Comments: N/A




SSA’s Compliance with the Federal Information Security Management Act of 2002 for Fiscal Year 2013   B-19
        9.1.11. Backups of information that are performed in a timely manner (FCD1, NIST
                SP 800-34, NIST SP 800-53). (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

        9.1.12. Contingency planning that consider supply chain threats. (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

9.2.    Please provide any additional information on the effectiveness of the organization’s
        Contingency Planning Program that was not noted in the questions above.

                Comments: N/A


 Section 10: CONTRACTOR SYSTEMS


10.1.   Has the organization established a program to oversee systems operated on its
        behalf by contractors or other entities, including organization systems and services
        residing in the cloud external to the organization? Besides the improvement
        opportunities that may have been identified by the OIG, does the program include
        the following attributes?

        FY2013 Conclusion: Yes

        10.1.1. Documented policies and procedures for information security oversight of
                systems operated on the organization’s behalf by contractors or other
                entities, including organization systems and services residing in a public
                cloud. (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

        10.1.2. The organization obtains sufficient assurance that security controls of such
                systems and services are effectively implemented and comply with Federal
                and organization guidelines (NIST SP 800-53: CA-2). (Base)

                FY2013 Conclusion: Yes

                Comments: We noted that while SSA management assessed the system security
                plan and planned for an independent assessment of controls for a contractor
                system, the assessment had not been executed prior to operation of the system.


SSA’s Compliance with the Federal Information Security Management Act of 2002 for Fiscal Year 2013   B-20
        10.1.3. A complete inventory of systems operated on the organization's behalf by
                contractors or other entities, including organization systems and services
                residing in a public cloud. (Base)

                FY2013 Conclusion: Yes

                Comments: We noted that the SSA contractor systems inventory did not include
                a service operated by a vendor. We noted that SSA had obtained a security
                controls assessment of this service.

        10.1.4. The inventory identifies interfaces between these systems and organization-
                operated systems (NIST SP 800-53: PM-5). (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

        10.1.5. The organization requires appropriate agreements (e.g., MOUs,
                Interconnection Security Agreements, contracts, etc.) for interfaces between
                these systems and those that it owns and operates. (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

        10.1.6. The inventory of contractor systems is updated at least annually. (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

        10.1.7. Systems that are owned or operated by contractors or entities, including
                organization systems and services residing in public cloud, are compliant
                with FISMA requirements, OMB policy, and applicable NIST guidelines.
                (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

10.2.   Please provide any additional information on the effectiveness of the Organization’s
        Contractor Systems Program that was not noted in the questions above.

                Comments: N/A




SSA’s Compliance with the Federal Information Security Management Act of 2002 for Fiscal Year 2013   B-21
 Section 11: SECURITY CAPITAL PLANNING


11.1.   Has the organization established a security capital planning and investment
        program for information security? Besides the improvement opportunities that may
        have been identified by the OIG, does the program include the following attributes?

        FY2013 Conclusion: Yes

        11.1.1. Documented policies and procedures to address information security in the
                capital planning and investment control (CPIC) process. (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

        11.1.2. Includes information security requirements as part of the capital planning
                and investment process. (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

        11.1.3. Establishes a discrete line item for information security in organizational
                programming and documentation (NIST SP 800-53: SA-2). (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

        11.1.4. Employs a business case/Exhibit 300/Exhibit 53 to record the information
                security resources required (NIST SP 800-53: PM-3). (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

        11.1.5. Ensures that information security resources are available for expenditure as
                planned. (Base)

                FY2013 Conclusion: Yes

                Comments: N/A

11.2.   Please provide any additional information on the effectiveness of the organization’s
        Security Capital Planning Program that was not noted in the questions above.

                Comments: N/A

SSA’s Compliance with the Federal Information Security Management Act of 2002 for Fiscal Year 2013   B-22
Appendix C – THE SOCIAL SECURITY ADMINISTRATION’S
             GENERAL SUPPORT SYSTEMS AND MAJOR
             APPLICATIONS
                                           System                                                 Acronym
                                                                1
                               General Support Systems
    1                             Audit Trail System                                                ATS
    2                    Comprehensive Integrity Review Process                                     CIRP
    3                    Death Alert Control and Update System                                     DACUS
    4                          Debt Management System                                               DMS
    5           Enterprise Wide Mainframe & Distributed Network                                    EWANS
                    Telecommunications Services and System
     6                      FALCON Data Entry System                                              FALCON
     7            Human Resources Management Information System                                    HRMIS
     8                   Integrated Client Database System                                          ICDB
     9               Integrated Disability Management System                                        IDMS
    10                             Quality System                                                    QA
    11              Security Management Access Control System                                      SMACS
    12           Social Security Online Accounting & Reporting System                             SSOARS
    13                Social Security Unified Measurement System                                    SUMS
                                  Major Applications 2
    1                        Electronic Disability System                                         eDib
    2                   Earnings Record Maintenance System                                       ERMS
    3              National Investigative Case Management System                                 NICMS
    4       Recovery of Overpayments, Accounting and Reporting System                            ROAR
    5       Retirement, Survivors, Disability Insurance Accounting System                     RSDI ACCTNG
    6        Supplemental Security Income Record Maintenance System                             SSIRMS
    7       Social Security Number Establishment and Correction System                          SSNECS
    8                                   Title II                                                   T2




1
  Office of Management and Budget Circular A-130, Appendix III, Security of Federal Automated Information
Resources, Section A.2.c, defines a “general support system” or “system” as an interconnected set of information
resources under the same direct management control which shares common functionality.
2
 Office of Management and Budget Circular A-130, Appendix III, Security of Federal Automated Information
Resources, Section A.2.d, defines a “major application” as an application that requires special attention to security
due to the risk and magnitude of the harm resulting from the loss, misuse, or unauthorized access to or modification
of the information in the application.



SSA’s Compliance with FISMA for FY 2013 (A-14-13-13086)                                                            C-1
Appendix D – METRICS DEFINED
•   Continuous Monitoring Management - Continuous Monitoring maintains ongoing
    awareness of information security, vulnerabilities, and threats to support organizational risk
    management decisions.

•   Configuration Management - From a security point of view, Configuration Management
    provides assurance that the system in operation is the correct version (configuration) of the
    system and that any changes to be made are reviewed for security implications.

•   Identify and Access Management - Identity and Access Management includes policies to
    control user access to information system objects, including devices, programs, and files.

•   Incident Response and Reporting - According to the National Institute of Standards and
    Technology (NIST), Special Publication (SP) 800-12, the two main benefits of an incident-
    handling capability are (1) containing and repairing damage from incidents and
    (2) preventing future damage.

•   Risk Management – “Risk Management is the process of managing risks to organizational
    operations (including mission, functions, image, reputation), organizational assets,
    individuals, other organizations, and the Nation, resulting from the operation of an
    information system, and includes: (i) the conduct of a risk assessment; (ii) the
    implementation of a risk mitigation strategy; and (iii) employment of techniques and
    procedures for the continuous monitoring of the security state of the information system.”
    NIST Special Publication 800-53, Rev. 3, page B-11.

•   Security Training - According to FISMA, Title III of the E-Government Act of 2002
    (Pub. L. No. 107-347, December 17, 2002) an agency wide information security program for
    a Federal agency must include security awareness training. This training must cover
    (1) information security risks associated with users’ activities and (2) users’ responsibilities
    in complying with agency policies and procedures designed to reduce these risks.

•   Plan of Action and Milestones (POA&M) – According to OMB M-14-04, “Plan of Action
    and Milestone (POA&M) (defined in OMB Memorandum M-02-01), A POA&M, also
    referred to as a corrective action plan, is a tool that identifies tasks that need to be
    accomplished. It details resources required to accomplish the elements of the plan, any
    milestones in meeting the task, and scheduled completion dates for the milestones. The
    purpose of the POA&M is to assist agencies in identifying, assessing, prioritizing, and
    monitoring the progress of corrective efforts for security weaknesses found in programs and
    systems.”

•   Remote Access Management - Refers to controls associated with remote access to the
    information systems from virtually any remote location.




SSA’s Compliance with the Federal Information Security Management Act of 2002 for Fiscal Year 2013   D-1
•   Contingency Planning - Processes and controls to mitigate risks associated with
    interruptions (losing capacity to process, retrieve, and protect electronically maintained
    information) that may result in lost or incorrectly processed data.

•   Contractor Systems - Agencies are responsible for ensuring that appropriate security
    controls are in place over contractor systems used or operated by contractors or other entities
    (such as other Federal or state agencies) on behalf of an agency.

•   Security Capital Planning – According to OMB M-14-04, “Capital Planning and
    Investment Control Process (as defined in OMB Circular A-130, (6)(C)) A management
    process for ongoing identification, selection, control, and evaluation of investments in
    information resources. The process links budget formulation and execution, and is focused
    on agency missions and achieving specific program outcomes.”




SSA’s Compliance with the Federal Information Security Management Act of 2002 for Fiscal Year 2013   D-2
Appendix E – MAJOR CONTRIBUTORS
Eveka Rodriguez, Engagement Partner, Grant Thornton

Greg Wallig, Electronic Data Processing Partner, Grant Thornton

Cal Bassford, Director, Grant Thornton

Jessica Saunders, Senior Associate, Grant Thornton

Olga Mason, Senior Associate, Grant Thornton

Kevin Potter, Associate, Grant Thornton




SSA’s Compliance with FISMA for FY 2013 (A-14-13-13086)           E-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
